Department   of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  ENTERAL NUTRIENT PAYMENTS

       IN NURSING HOMES





                      JUNE GIBBS BROWN
                      Inspector General

                          MARCH 1996
                         OEI-06-92-00861
                       OFFICE OF INSPECTOR                 GENERAL

The mission of the OffIce of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspectionsconducted by three OIG operating components: the OffIce of Audit Services, the
OffIce of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’SOffice of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independentassessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and et%ciencythroughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’SOfllce of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativeefforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’SOffIce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the eftlciency, vulnerability, and
effectiveness of departmental programs.

Dallas Staff                                                          Central OffIce

Leah Bostick                                                          Jennifer Antico
Kevin Golladay                                                        Brian Ritchie
Sarah Taylor                                                          Barbara Tedesco
Clark Thomas

For further information contact: Kevin GoIladay at 214/767-3310 or l/800-84S-8%0.
Department   of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  ENTERAL NUTRIENT PAYMENTS
       IN NURSING HOMES
                      EXECUTIVE                      SUMMARY


PURPOSE

To determine whether Medicare Part B is paying too much for enteral nutrition therapy for
nursing home residents.

BACKGROUND

Enteral nutrition therapy provides nourishment directly to the digestive tract of a patient who
cannot, for a variety of reasons, ingest an appropriate amount of calories to maintain an
acceptable nutritional status.

For this inspection, we gathered data on the utilization of enteral nutrition in nursing homes
from 1992 Medicare payment records, surveyed nursing homes about their methods and costs
of securing enteral nutrients for residents, and randomly surveyed 200 hospitals for nutrient
purchase costs and quantity purchased annually. Additionally, we obtained proprietary data
from IMS America concerning purchase patterns of various enteral nutrient products obtained
from its 1994 fiscal year audit of nursing home pharmacies.

To assess the extent of enteral nutrition billed to Part B for nursing home residents, a sample
of nursing homes was drawn and payment history extracted for calendar year 1992. Our two-
stage stratified sample consists of 150 nursing homes randomly selected from 10 States(15
nursing homes per State). Data from the sample were projected to the total nursing home
population (residents in Medicare or Medicaid-certified nursing homes).

This inspection was conducted as a part of Operation Restore Trust. The initiative, focused on
five States, involves multi-disciplinary teams of Federal and State personnel seeking to reduce
fraud, waste, and abuse in nursing homes and home health agencies, and by durable medical
equipment suppliers.

FINDINGS

Medicare Part Bpaymen13 for enteral nutrition are excessive.

.	 Medicare reimbursement for nutrients substantially exceeds purchase prices commonly
   available to nursing homes through volume purchasing and other contractual relationships,
   often by about 42 percent. For example, while Medicare pays $0.61 per 100 calorie unit
   for the most commonly used enteral product, nursing homes report they can buy the same
   nutrients for an estimated average price as low as $0.43 per unit.




                                                1

.	 An estimated $170 million was allowed for enteral nutrients provided to about 5 percent
   of nursing home residents in 1992, Of this, Medicare paid an estimated $136 million.
   The remaining $34 million was paid by (or on behalf of) beneficiaries.

.	 Although nursing homes often can buy enteral nutrients at substantially below Medicare
   reimbursement levels, no incentives exist for them to exert their buying power and pass
   the savings onto the taxpayer.

Most charges (estimated 75 percent) are for Categoy     I nutrients, the simplest and most
readily available type.

�	   The most common enteral nutrients used in nursing homes are Ensure, Jevity, and
     Osmolite, which are considered basic food (these three products are readily available in
     the marketplace, are often purchased for use as a food supplement, and are considered by
     the Food and Drug Administration to be food).

RECOMMENDATIONS

Medicare reimbursement policies fail to recognize the ability of a nursing home to purchase
nutrients and supplies at costs less than those incurred by the average beneficiary through bulk
purchasing and institutional buying power. Nor do these policies provide incentives for the
nursing home to exert its buying power to save the taxpayer money.

Further, and possibly more critical, current coverage of enteral nutrients does not recognize
enteral nutrients as “food.” If recognized as food, payment for enteral nutrients would be
made as apart of the facility payment, rather than separately billed to Medicare Part B. Thus,
the current excessive Part B payments would be eliminated, along with Medicare’s exposure
to fraud involving enteral nutrients when they are used as a food supplement (not covered by
Medicare) rather than as the primary source of nutrition (covered by Medicare).

To address excessive payments for enteral nutrients, we offer the following options (each
requiring legislation to implemenz) and our recommendation for consideration:

Options

      1)	   Exclude enteral nutrients from Part B reimbursement when the patient resides in a
            nursing home.

      2)	   Continue Part B reimbursement, but lower enteral nutrient reimbursement levels
            when provided to residents of nursing homes.




                                               ii
Recommendatwn

We support either option. However, we believe Option 1 is preferable for several reasons.
First, enteral nutrients represent a resident’s food or meal while in the nursing home.
Second, this option provides an incentive to nursing homes to exert their buying power to
get preferred pricing on enteral nutrients. Third, incentives to overutilize enteral feeding
will be removed. Fourth, this option is supportive of the Health Care Financing
Administration’s efforts to require consolidated billing for services provided in skilled
nursing facilities. Finally, most enteral nutrient costs are roughly comparable to general
nursing home meal costs.l

AGENCY COMMENTS

Both the Health Care Financing Administration (HCFA) and the Assistant Secretary for
Planning and Evaluation (ASPE) provided comments on this report. Both concur that
Medicare is paying too much for enteral nutrients and support the recommendation’s first
option on the grounds that enteral nutrients are “food” and, thus, should not be billed
separately to Medicare Part B. Rather, the cost of enteral nutrients should be included in a
facility’s costs and covered as a part of payment to the facility for the nursing home stay.
The HCFA emphasizes legislation would be required to change current payment rules for
enteral nutrients to implement this payment option.

The ASPE does express reservations about the impact of this recommendation on the
general nursing home population whose nursing home stay is paid by other payers (e.g.,
Medicaid). We appreciate ASPE’S concerns and wish to emphasize that the cost of enteral
nutrients is comparable to that of a meal. Since meals are provided by the nursing home
and paid by whomever is paying for the nursing home stay, we do not believe a change in
reimbursement policy for enteral nutrients would pose a financial hardship on the
beneficiary. However, to ensure this, exceptions might be made for some categories of
enteral nutrients where it can be shown that costs substantially exceed general food costs.




                                           ...
                                           111
                              TABLE OF CONTENTS

EXECUTIVE SUMMARY


INTRODUCTION                 .. ............                    . . . . . . . . . . . . . . .
          . . . . . . . . . . . . . . .         1

FINDINGS         . ............ ... ...                         . . . . . . . . . . . . . . .
          .. ...... .... ...4

   Enteral nutrient payments . . . . . . . . . .              . . . . . . . . . . . . . . . . . . . . .
 .   ................. 4

   Categories ofcharges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   Excessivenutrientpayments.                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


   Useofoutside         suppliers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


   No incentives for facilitiestopay                less . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


   Preferredpricing arrangements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


   Variations innutrientusage.                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


RECOMMENDATIONS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


ENDNOTES           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...13


APPENDIX A: HCFA Classification ofNutrients                                    . . . . . . . . . . . . . . . . . . . . . . . A-1


APPENDIX B:TextofHCFAad                             ASPEComments                    . . . . . . . . . . . . . . . . . . . . . B-1

                              INTRODUCTION


PURPOSE

To determine whether Medicare Part B is paying too much for enteral nutrition therapy for
nursing home residents.

BACKGROUND

Enteral nutrition therapy provides nourishment directly to the digestive tract of a patient who
cannot, for a variety of reasons, ingest an appropriate amount of calories to maintain an
acceptable nutritional status. Enteral nutrition consists of a liquid nutrient formula which is
administered by tubing inserted through 1) the nose, 2) an incision to the small intestine, or 3)
an incision leading to the stomach.

Enteral nutrients are covered as a routine cost during a Part A covered skilled nursing facility
(SNF) stay, or are included in the daily rate when provided to a Medicaid-eligible nursing
home resident. Section 1861h of the Social Security Act specifies covered extended care
services to an individual in a skilled nursing facility stay. These services include “bed and
board in connection with the furnishing of nursing care” and are considered routine services.
Routine services (e.g., dietary) are expected to be provided by the nursing home.

Medicare Part A and Medicaid coverage includes enteral nutrition products when they are
used to satis~ dietary needs ~ are provided by a nursing home. In such a case, these
products are considered food. However, enteral nutrients provided by an outside supplier are
currently not considered as a cost to the nursing home. Instead, they are covered under the
Part B prosthetic device benefit,

Medicare guidelines classifj enteral nutrition under the prosthetic device benefit because
coverage under Part B is only for therapy required due to an absent or malfunctioning body
part which normally permits food to reach the digestive tiact. Nutrients are classified by the
Health Care Financing Administration (HCFA) into six categories, based on the composition
and/or product. (See Table 1.)




                                                1

                                                   TAR117
                                                   s —-x.
                                                               1
                                                               A




                HCPCS         Medicare
  Category      Category      Reimbursement         Content Description             Examples of Products
                              per unit **
                              (1993-1995)
       1        134150                 $0.61       Semi-syntheticintact              Ensure, Osmolite,

                                                   protein isolates*                 Isosource, Jevity

       I        B4151                  $1.43       Natural intact                   Compleat-B

                                                   protein/proteinisolates*         Vitaneed

      II        B4152                  $0.51       Intact protein/protein           Comply, Ensure Plus,

                                                   isolates*                        Nutren,

                                                                                    Sustacal, Sustacal HN

      III       B4153                  $1.75       Hydrolyzedprotein/protein Criticare HN

                                                   isolates                  Precision HN

                                                                             Travasorb HN

      IV        B4154            Varies with       Defined formula for              Citrotein, Fulfill, Promote,

                                  product          specific metabolic need          Vivonex Plus

      v         B4155           Varies with        Modular components               Advera, Sumacal, Isosource

                                 product                                            w-ml
      VI        B4156           Varies with        Standardizednutrients            Prevision L~
                                 product                                            Travasorb STD,
                                                                                    Vivonex STD
            -- .    ..    .      . .
“ require eJJecuve digestive and absorptive processes for utilization (suitable only for patients with sufficimt
gastrointestinal function). (See Appendix A for further information on product classifkation.)
** 1 unit= 100 calories


The HCFA’Sdecision to consider enteral nutrients as a prosthetic benefit was in direct
response to 1980 Congressional deliberations in which the House Ways and Means
Committee expressed its concern that Medicare did not cover enteral therapy for non-
institutionalized patients; although, in the view of the Committee, such coverage was
warranted. The Committee directed the Secretary to “filly explore” the possibility of
Medicare coverage for enteral products. However, it is unclear whether committee members
intended that institutionalized patients be provided enteral nutrition by anyone other than the
institution providing the care.

In July 1981, HCFA issued instructions providing coverage under the Part B prosthetic device
benefit, in addition to the parenteral coverage under this benefit, The coverage of enteral
nutrients under this provision, rather than as a home health benefit, is based upon several
reasons. First, the beneficiary does not have to be homebound, as required to receive home
health benefits. Second, there is no authority to pay for “drugs and biological and food under
home health.” Finally, “it is these items that represent the most costly component of enteral
and parenteral therapy.”



                                                         2

METHODOLOGY

For this inspection, we gathered data on the utilization of enteral nutrition in nursing homes
from Medicare payment records for 1992, surveyed nursing homes about their methods and
costs of securing enteral nutrients for residents, and randomly surveyed 200 hospitals for
nutrient purchase costs and quantity purchased annually.

Additionally, we obtained proprietary data from IMS America. IMS is a private corporation
that conducts marketing research in such areas as the medical community. Specifically, IMS
routinely surveys different sectors of the business community concerning purchase patterns of
various products. One audit regularly conducted by IMS obtains data for oral supplements
purchased through nursing home pharmacies, or purchased by pharmacies that conduct a
majority of business with nursing homes. Results from the 1994 fiscal year audit were
obtained.

To assess the extent of enteral nutrition billed to Part B for nursing home residents, a sample
of nursing homes was drawn and payment history extracted for calendar year 1992. Our two-
stage stratified sample consists of 150 nursing homes randomly selected from 10 States (15
nursing homes per State). Those States were California, Delaware, Florida, Indiana, Kansas,
Louisiana, Maine, Michigan, Montan~ and Wyoming. Stratification was based on facility
size (large, medium, and small).

Each sample nursing home provided us with a list of all Medicare eligible beneficiaries
residing in that nursing home during 1992, along with each resident’s corresponding dates of
stay. After verification of the beneficiary’s health insurance claim number (HICN) with the
Medicare enrollment database, all Medicare services provided during the nursing home stay
were extracted ftom the Medicare National Claims History File for calendar year 1992. The
Part B services, processed by both the carrier and the intermediary, were identified. Data from
the sample were projected to the total nursing home population (residents in Medicare or
Medicaid-certified nursing homes).

This inspection was conducted as a part of the Presidential initiative, Operation Restore
Trust (ORT). The initiative involves multi-disciplinary teams of Federal and State
personnel seeking to reduce fraud, waste, and abuse in nursing homes, home health
agencies, and involving durable medical equipment supplies.

Our review was conducted in accordance with the Quality Standards for Inspections      issued by
the President’s Council on Integrity and Efficiency.



         **    Unless stated otherwise, jlgures in thik report are natwnal estimates     **
                             projectedfrom a random sample



                                                3

                                    FINDINGS


Medicare allowed an estimated$170     million for enteral nutrients.

At the 95 percent confidence level, we estimate that during 1992, between $130 and $210
million was allowed for enteral nutrients to approximately 112,830 nursing home residents in
more than 15,000 nursing homes. This represents an estimated average bed day cost of $7.20
per day for enteral nutrition. The overall average daily charge, spread across all nursing home
residents, is small at $0.36 per day. This is because only an estimated 4.7 percent of nursing
home residents receive enteral nutrition which is reimbursed by Part B.

An average daily caloric intake of 1,800 multiplied by the cost of the lowest Part B
reimbursement for enteral formulae ($0.51 per 100 calories) yields an expected daily charge
for enteral nutrients of $9.18 per day. However, our estimated daily cost was only $7.20.
This disparity can be explained if 1) the enteral nutrients were not provided for the entire
duration of the nursing home stay, 2) the person received a portion of nutrient intake tlom
other sources, or 3) the person was simply receiving supplemental feeding with enteral (which
is not covered by Medicare). Also, it is possible that enteral nutrition was paid partially by
other sources (e.g., Medicaid, private insurance). Further investigation is needed to establish
the extent to which these or other factors account for the disparity noted.

Most charges (75percent)   are for Catego~ I nutrienti, the simplest and most readily
available @pe.

The majority of enteral nutrient charges are
                                                 Most Allowed Charges are for Category I Nutrients
for Category I ($140 million). Over 90
percent of the Category I charges ($128
million) are for products that fall under the
B4 150 product code and are termed semi-
                                                             CategoryII
synthetic nutrients. These include                          CategoryIll                          Category1
                                                                                               (semi-synthetic  $128
recognizable liquid food brand names such                                                         and natural $12)
as Ensure, Jevity, Osmolyte, and Isocal. The                 CategoryI                             $140   mt[[{on

remaining charges are distributed among
four additional categories, as shown in
Figure 1.
                                                  Source:     1992   nursing   home   sample

Surveyed nursing homes and hospitals most                          Figure 1
often purchase one of three products for
enteral nutrition therapy. These products are
Ensure, Jevity, and Osmolite. Each is manufactured by ROSS labs. Other products used for
enteral nutrition therapy are manufactured by SANDOZ, MEAD JOHNSON, and CLINTEC.
SANDOZ markets Fibersource, Isosource, Meritene, and Resource. MEAD markets Isocal,
Sustacal, and Ultracal. Finally, CLINTEC markets Nutren and Replete.

According to IMS data (see methodology), most purchases through pharmacies for enteral
nutrients are about equally divided between Ensure, Fibersource, Isosource, and Ultracal. The
difference between what nursing homes and hospitals reported and the IMS data maybe
explained by the likelihood that most common (off-the-shelf) enteral products (Ensure,
Jevity, and Osmolite) are purchased through the nursing home’s dietary center (often directly
from ROSS Labs or a supplier) rather than through the nursing home’s pharmacy or other
pharmaceutical supplier. The IMS data focvsed on food supplements purchased through
pharmacies.

Medicare payments for enteral nutrients for nursing home residents are excessive because
reimbursement rates are set too high.

Data from several sources confii that nursing homes can purchase enteral nutrients at
significantly lower prices than current Medicare reimbursement levels. To illustrate,
Medicare reimbursement for Category

I semi-synthetic enteral nutrients
                          The Majority of Nursing Homes Can
(B41 50) is $0.61 per 100 calorie unit.
             Purchase Category I Nutrients At or Below
                                                                                                40 Cents Per Unit
The average cost at which nursing

homes can buy this category of
            Percent of Sample
                                             Nursing Homes
nutrient product (according to nursing
         50%T . . . . . . . . . . . . . .. . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . .

homes in our sample) was estimated

                                                                   52% km
to be $0.43 per unit for their most
                       than 40 cents
                                                   40--------    ~-------------                  .--------------’                --------
frequently used product (thus

                                                     -..<...............34?4?                            ........................
Medicare ispaying on average 42

percent more). Proprietary data
                                                         30---”-
                                                                                                        .,          e“
                                                                                                                    ............23%
                                                                                                                                  ................................................
gathered by IMS validates this

finding, showing an identical average
                                                   *O-.18%,                           .                                            --------
                                                                                                                                                                 17%
estimated purchase cost of $0.43 for
                                                                                        .         .

Category I nutrients.
                                                                   jo -


While the average cost is $0.43 per

                                                                                           0
100 calories, the majority of nursing
                                                          ~o.30        $0.31-$0.40                    $0.51-s0.60
                                                                                                                                                                SO.61
homes pay less than the average and
                                                            or less                    .$0.41-s0.50                        or more

83 percent pay less than the Medicare
                                                                  Category    I Nutrient Purchase       Price Per Unit

allowable amount. (See Figure 2.)

                                                                                      Source:      1992 nuralng home sample


Of the 17 percent of nursing homes
                            Figure 2
reporting enteral costs in excess of

Medicare reimbursement, it is not clear whether the nursing home actually loses or would lose
money if nutrients were purchased by the nursing home.



                                                                                      5

In the sample nursing homes reporting purchase costs above $0.61, contact with the nursing
home revealed that outside suppliers were billing Medicare, or that a contractual relationship
exists with the supplier causing the nursing home to pay more. Thus, the nursing facility
incurred no losses directly related to Medicare reimbursement. In only one case did the
supplier ask the nursing home to pay additional costs beyond the Medicare allowed amount.
This nursing home experienced high enteral nutrient costs because the nursing home had
entered into a contractual relationship with a supplier to exclusively purchase supplies. The
pricing was artificially high because of the contractual terms whereby the supplier was able to
demand high payments from the nursing home in order to repay loans made by the supplier
when the nursing home was constructed.

Medicare costs are also higher because most nursing homes (75percen@ do not directly
purchase enteral nutrients for residents, but instead, allow outside suppliers to provide
them and bill Medicare.

Although a majority of nursing homes report being able to purchase nutrients below Medicare
reimbursement levels, most nursing homes (an estimated 75 percent) prefer having an outside
supplier provide, and bill Medicare for, the nutrients used by Medicare residents. These
suppliers, in turn, bill Medicare at or above the established maximum reimbursement levels.
Even when a nursing home provides the nutrients (25 percent), it typically acts as a supplier,
billing Medicare Part Bat current reimbursement levels rather than at or slightly above its
actual procurement costs.

Survey results indicate many suppliers (30 percent) are directly affiliated with the nursing
home. This afilliation could be contractual (29 percent) or through common ownership (49
percent). The remaining 22 percent were unspecified by the nursing home respondents.

Additionally, many suppliers (at least one-third) provide supplies to the nursing home on a
consignment basis, with billing supposedly done after items are used. This practice
exemplifies the lucrative nature of the nursing home supply business. In few other businesses
are products provided first and billed for later. Nor is it common for businesses to store
merchandise at the nursing home until used. Medical products are more commonly bought in
advance for a specific resident.

With no incentive to purchase nutrients below Medicare reimbursement levek, it k not
surprising that some nursing homes report purchase prices at or above Medicare
reimbursement levelk.

While the average cost for enteral products in each reimbursement category is far below what
Medicare allows, the range within categories is more extreme. Some nursing homes pay fm
more than the Medicare rate for nutrients, while others pay substantially less than the average
prices reported above. In category B41 50, for example, prices ranged from $0.11 to $0.88.
Interestingly, in two reimbursement categories(B415 1 and B41 54), no nursing home reported



                                               6

paying more than Medicare reimbursement. (See Table 2.) Additionally, no significant cost
differences were identified between States.


                                        Table 2

       Nutrient      CategoryI      CategoryI          CategoryII      CategoryIll   CategoryIV
       Category    Semi-synthetic    Natural          Intact Protein   Iiydrolized    Defined
                      B4150          B4151                B4152          Protein      Formula
                                                                          B4153        B4154

  Medicare Pays            $0.61         $1.43               $0.51          $1.74         $1.14

 Most Paid by a
  Nursing Home             $0.88         $1.15               $0.88          $2.08         $0.95

     LeastPaid             $0.11         $0.47               $0.13          $1.05         $0.40



Hospitals, on the other hand, and many nursing homes obtain preferred pricing on enteral
nutrients through buying groups or by arranging other contractual relationships with
vendors.

Based on a random survey of 200 hospitals, Category I semi-synthetic nutrients are purchased
at an average of only $0.35 per 100 calorie unit. Unlike nursing homes, hospitals do have an
incentive to keep their costs down. This is because Medicare pays a fixed amount for each
type of hospital admission no matter what costs that hospital incurs. This average represents a
good proxy for the best overall average price available in the community. Hospitals report
negotiated pricing or membership in buying groups as their primary methods for securing low
costs for products such as enteral nutrients.

Exhibiting a similar ability to negotiate preferred pricing, sampled Veterans Administration
hospitals reported routinely purchasing Catego~ I nutrients at a comparably low rate. Some
Veterans Administration hospitals reported costs as low as $0.12 per 100 calories.

Although most buying groups representing hospitals and nursing homes were reluctant to
provide contract pricing to us, a few did provide such information. One of these buying
groups offered Category I semi-synthetic nutrients to member hospitals and affiliated nursing
homes for as little as $0.16 per unit (100 calories). Another buying group offered a slightly
higher price of only $0.25 per unit.




                                                 7

Use of enteral nutrition varies between States and, especially, between nursing homes.

In our ten-State nursing home sample, estimated use of enteral nutrition therapy ranged from a
high of eight percent of resident stays in Louisiana to a low of one percent in Maine and
Wyoming. (See Figure 3.)



                                         Louisiana Showed the Highest Rate
                                                    of Enteral Use
                 Percent of Stays
                    With Enteral
                    10%
                          1




                                                               m=
                      8- -’          -----------



                      ~       .,,    .6.0%
                                               ,.



                      4- --          -

                                                                      .......................

                      2- -..             ..-   .-..




                       (1




                                                      SAMPLE STATES
                   Source:          1992 nursing home sample



                                                        Figure 3


We cannot explain Louisiana’s higher overall Medicare covered enteral nutrition use without
fiuther work. However, we can speculate that either a higher percentage of nursing home
residents in Louisiana need tube feedings or Louisiana’s uncommon Medicaid policy of not
including enteral nutrients under its nursing home daily rate increases billing to Medicare
Part B.

Some nursing homes showed heavy use of enteral nutrients relative to the majority of nursing
homes. In many cases, this heavy use was not explained by the certification status of the
facility or the level of SNF residents in the facility. For example, 20 percent of facilities
certified as Medicaid-only provided enteral nutrients to more than 10 percent of their resident
populations. In contrast, none of the Medicare-only SNF facilities exceeded five percent and
only 10 percent of the dually-certified facilities exceeded this amount. Such high levels of



                                                               8

enteral nutrient use raise quality of care, as well as excessive cost, concerns. If residents are
being tube fed as a convenience to the facility, rather than as a necessity to the well being of
the resident, abuse is occurring. Further study is needed to validate the prevalence of
inappropriate enteral tube feedings.




                                                 9

                       RECOMMENDATIONS


Medicare reimbursement policies fail to recognize the ability of a nursing home to purchase
nutrients and supplies at costs less than those incurred by the average beneficiary through bulk
purchasing and institutional buying power. Nor do these policies provide incentives for the
nursing home to exert its buying power to save the taxpayer money.

Further, and possibly more critical, current coverage of enteral nutrients does not recognize
enteral nutrients as “food.” If recognized as food, payment for enteral nutrients would be
made as a part of the facility payment, rather than separately billed to Medicare Part B. Thus,
the current excessive Part B payments would be eliminated, along with Medicare’s exposure
to fraud involving enteral nutrients when they are used as a food supplement (not covered by
Medicare) rather than as the primary source of nutrition (covered by Medicare). Additionally,
Medicare’s exposure to duplicate payments would be eliminated.

To address excessive payments for enteral nutrients, we offer the following options (each
requiring legislation to implemen~ and our recommendation for consideration:

PAYMENT      OPTIONS

OPTION 1	      Exclude enteral nutrients from Part B reimbursement      when the patient
               resides in a nursing home.

       Option 1A:	    Exclude enteral nutrient payments for anyone in a nursing home,
                      regardless of payment status (Part A Medicare extended care benefit,
                      Medicaid covered stay, or private pay resident).

       Option lB:	    Exclude enteral nutrient payments for anyone in a nursing home whose
                      stay is paid by Medicare or Medicaid. Thus, Medicare Part B would
                      continue to pay part B for private pay residents only.

OPTION 2	      Continue Part B reimbursement, but lower enteral nutrient reimbursement
               levels when provided to residents of nursing homes.

       Option 2A:	    Move enteral nutrient reimbursement to a fee schedule, with a reduction
                      to the fee schedule, if a nursing home is involved. Base fee schedules
                      on average retail pricing. Implement a modifier which causes a
                      reduction to the fee schedule if a nursing home resident is involved.

       Option 2B:	    Continue the current reimbursement system and apply inherent
                      reasonableness to the charges for nursing home residents.




                                              10

Cost Savings: The exact amount of savings that could be obtained by the Federal government,
in implementing this recommendation, depends on a number of factors, including the specific
option selected, and programmatic controls implemented to expressly allow or expressly
prevent cost shifting to other parts of the program, the Medicaid program, or beneficiaries.

For example, by simply not paying for enteral nutrition products under Medicare Part B, the
Medicare program could save $136 million per year. However, if some of these costs were
shifted to other sources, including Medicare Part A, savings could be reduced or even
eliminated. If Medicare Part B continued to pay for enteral products, but reimbursed nursing
homes at a lower fee schedule amount, reflecting the reduced prices they could obtain for
these products, savings of $41 million to the Medicare program would result, as well as $10
million to beneficiaries or their representatives in reduced coinsurance.

RECOMMENDATION

We support either option. However, we believe Option 1 (either A or B) is preferable for the
following reasons:

   �	   It is Food - the Food and Drug Administration categorizes enteral nutrient products as
        food. Medicare does not typically reimburse for dietary expenses unless provided in
        an institutional setting and then only to the institution.

   �	   Incentives to nursing homes - this option provides an incentive to a nursing home to
        exert its buying power to get preferred pricing on nutrients, given Medicare’s
        expectation and enforcement of prudent buying practices. Also, since nursing homes
        would make little or no profit from nutrients, no incentives would exist to over-utilize
        enteral feeding.

   �	   Consistent with Rebundling -it is consistent with HCFA’S effort to consolidate
        billing for services provided in skilled nursing facilities.

   �	   Covered in the Medicaid Daify Rate - virtually all Medicaid agencies consider enteral
        nutrients a supply covered under the daily rate.

   �	   Part B Payment Policy is Inconsistent    - Medicare will not pay for a wheelchair in a
        nursing home (DME is noncovered unless provided in the beneficiary’s “home”);
        however, Part B pays for enteral nutrients. If a nursing home is expected to provide a
        wheelchair at no addhional cost to the beneficiary, why is a beneficiary’s meal
        (enteral) an additional cost to Part B and the beneficiary?

   �	   Enteral Costs and Typical Meal Cos& are Roughly Comparable - it can be argued
        that, at a minimum, Category I and 11nutrient costs ($6-$8 per day), are about
        equivalent to the daily cost of meals provided in a nursing home (cost of food plus
        preparation - $7).1 Consequently, beneficiaries should receive enteral feeding nutrients
        as a facility reimbursed cost, just as a meal would be.




                                                11

These conclusions and recommendations will be shared with appropriate Federal and State
entities involved in Operation Restore Trnst.

COMMENTS

Both the Health Care Financing Administration (HCFA) and the Assistant Secretary for
Planning and Evaluation (ASPE) provided comments on this report. Both concur that
Medicare is paying too much for enteral nutrients and support the recommendation’s first
option on the grounds that enteral nutrients are “food” and, thus, should not be billed
separately to Medicare Part B. Rather, the cost of enteral nutrients should be included in a
facility’s costs and covered as a part of payment to the facility for the nursing home stay. The
HCFA emphasizes legislation would be required to change current payment rules for enteral
nutrients to implement this payment option.

The ASPE does express reservations about the impact of this recommendation on the general
nursing home population whose nursing home stay is paid by other payers (e.g., Medicaid).
We appreciate ASPE’S concerns and wish to emphasize that the cost of enteral nutrients is
comparable to that of a meal. Since meals are provided by the nursing home and paid by
whomever is paying for the nursing home stay, we do not believe a change in reimbursement
policy for enteral nutrients would pose a financial hardship on the beneficiary. However, to
ensure this, exceptions might be made for some categories of enteral nutrients where it can be
shown that costs substantially exceed general food costs.




                                              12

                                ENDNOTES


1.	   The following are dietary costs provided from Texas nursing homes in the 1993
      Medicaid cost report. Expressed asaverage perdiem expemes, tiey representa
      good approximation of the cost of food for nursing home residents.

            Food (fresh, frozen, canned, etc.)
                      $3.30
            Food staff
                                              $2.88
            Supplies (dishes, utensils, etc.)
                       $0.32
            Miscellaneous
                                           $0.42

            Total Average Daily Cost
                                $6.92




                                           13
                                   APPENDIX              A
           CATEGORIZATION          OF PRODUCTS      INTO PROCEDUW   CODES


 CATEGORY       1- B4150
     Attain
                                     Isosource HN
     Attain LS                       Jevity
     Attain KDS
                     Lonalac
     Ensure
                         Meritene
     Ensure HN
                     Newtrition (Flavors)
     Ensure Powder
                 Newtrition HN
     Ensure with Fiber (Enrich)
    Newtrition Isofiber
     Entera
                        Newtrition Isotonic
    Entera Isotonic
                Nitrokm
    Entera Isotonic Fiber
          Nutrapak

    Entralife FIN
                  Nutren 1.0

    Entralife HN Fiber
             Nutren 1.0 with Fiber

    Entralife HN-2
                 Nutrilan

    Entrition HN
                   Osmolite

    Fiberlan
                       Osmolite FIN

    Fibersource
                   Pediasure

   Fibersource HN
                 Pediaswe with Fiber

   Fortison
                       Portagen

   Hearty Balance
                 Pre-Attain

   Introlite
                      Profiber

   Isocal
                         Replete

  Isocal HN
                       Resource

  Isocal 11
                       Susta II

  Isofiber
                        Sustacal

  Isokm
                           Sustacal Fiber

  Isomil
                          Ultracal

  ISOsource


CATEGORY     1- B4151
  Compleat-B                       Vitaneed

  Compleat-B Modified




                                         A-1
CATEGORY      II - B4152
   Comply
                         Nutren 1.5

   Ensure Plus
                    Nutren 2.0

   Ensure Plus HN
                 Nutrivent before 5/93

   Entrition 1 ?4
                 Resource Plus

   Isocal HCN (Deliver 2.0)
       Respalor

   Isotera Isotonic
               Sustacal HC

   Lipisorb
                       Sustacal Plus

   Maganacal
                      Twocal HN

   Newtrition 1 X
                 Ultralan


CATEGORY III - B4153
  Accupepha                        Reabilan

  Criticare HN                     Travasorb HN

  Lsotein                          Vital HN

  Precision HN                     Vivonex HN

  Precision Isotera

CATEGORY IV - B4154
  Alitraq                          Promote

  Citrotein                        Promote with Fiber

  Fulfil SLD                       Vivonex Plus

  Peptomin VHP

~CAT                               (XX- temporary Codes developed by DMERCS)

   Accupep HPF (XX030)
            Peptamen (XX044)

   AmidAid (XX031)
                Peprative (XX045)

   Entera OPD (XX032)
             Pregestirnil (XX046)

   Glucerna (XX033)
               Protain XL (XX047)

   Hepatic Aid (XX034)
            Provide (XX048)

   Impact (XX035)
                 Puhnocare (XX049)

   Impact with Fiber (XX036)
      Reabilan HN (XX050)

   ImunAid (XX037)
                Suplena (Replena) (XX051)

   Lipisorb (XX038)
               Stresstein (XX052)

   Nepro (XX039)
                  Traumacal (XX053)

   New Replete (XX040)
            TraumAid HBC (XX054)

   New Replete with Fiber(XX041)   Travasorb Hepatic (XX055)
   NutriHep (XX042)                Travasorb Renal (XX057)
   Nutrivent after 5/93 ~043)      Vivonex TEN (XX058)

CAT EGORY V LOCAL CODES
   Casec (XX059)                   Polycose (XX068)
   Conrtolyte (XX060)              Promod (XX069)



                                           A-2

  Elementra (XX061)     Premix (XX070)
  Fibrad (XX062)        Propac (XX071)
  Lipomul (XX063)       Sumacal (XX072)
  MCT Oil (XX064)       Advera (XX073)
  Microlipid (XX065)    Crucial (XX074)
  Moducal (XX066)       Diabetasource (XX075)
  Nutrisource (XX067)   Isosource VHN (=076)

CATEGORY    VI -84156
  Prevision LR Powder   Travasorb STD Powder
  Tolerex               Vivonex STD Powder




                              A-3
                                                      APPENDIX                   B
                              ASSISTANT        SECRETARY       FOR PLANNING AND EVALUATION
                                                              COMMENTS
 .   ..*...).
                .,




:J c
.“
‘%
 “’%.,,9,.
                           DEPARTMENT
                                   OF HEALTH          a HUMAN SERVICES                     otelwdlb~


                                                                                           ~           DC -~




                     m              ~laudiaCooley
                                    IomnltivcSecrowy
                     FRO\l.         :Wing Assktant Semetaty for
                                     Planning aod Evaiustion

                     SUDJLXT;       i%rtd   Comments -g       OIG DE@ pe~     @I McrMcascPaytnents fos
                                   !&vices Provi&d to Nursing Horrw-!


                 IIIour ewlicr mspnse to & b      OIG reprts m ~          pa-      fbr ruasing home
                 rcsidcms. WCe~ptcsed cmccjTI that b mprxta couki indvwtd      yicadfotheconciusionthst
                 MmJiGut Part B paymco?a Silutlid not ire Ma(ia on Mhaifofllmi!lgbme N3idUUS    adtbat
                                                                                                   w
                     \wuldJkmS t& c~            ~ *    ~     dulit)ga -   With(XG StatTonDecadMr 12,
                     1995. .+> a fcsultofttris &CUSSiCM
                                                      betwctaASPE and OIG Mthc M         fbsmal ASPE
                 cotnmcms arc otkui regdng the b          OIG mportaesuidad “htt B Scavices in Nusaing
                 Ilorw%- 4\rtOverviewY” Durable Medical EquipmentPayments in Numin8 ~“           and
                 “-liutcrolNatritnts Payments in Nursing Homee”’.

                 Entcrxd      Xulritnts Pay-      ta Nnrsimg lWIWY




                     we itruopposed to b OIGmoommmb“ontoeqaodthea=d~==-MBM
                              Wof
                     PWmCXIL\mt          paSOOainaPartACOVCtCd
                                                            SNFataYtOdSO_P==O=    rnW?*
                     .%cuw.swlstays Attltktimgkjsw~astkm             -lMdWddbo&hded
                                                                               ----



                                                                     B-1

,n a nursing home payment rate. As a result, wo m tile        to i~~tifi      which Medieam Part B
DME paymcnu arc made for routine nursinghome servirxs(i.e., semices thu shouldbe included
in a nursing Jlomepaymem rate) and which are not- Further, while we understandcurrent law
Iimils Part B DME to persons who are residing in [heir“homc~ it is not cksr when a nursing
home resident (i.e., in non-PiutA coveredstay) is permanentlyresidingin such a fadity, and,
thus, is at home in& &i]ity, V~US    a ~i&L     tit is ~ving         shofi-@m     me  and intends to
rmun home. ‘J-Oens~c tit ~nefici~i~ ~ not -pria~~y                     d~ed n~~       @v~c,     a
tdicy prohibiting pm 5 Dm pa~ents to all n~ng home reside@ ~~d haVCto S-C
 hat pan B J)ME p~y~ents ~ for ro~”ne or core n-             h~~ ~i~           md U( th~ ~ no
.~ng-tem, permanent nursing home residents far whom the nursing home has, in fit, become
t!lek   home. We do noL~fieve ~at these uc accurate~~@o~              Fhq      we areeoncemed
that denying MedicarePart B DiW?pay~n~         to n-      home ~iden~     could have a ne@vc
Ifect on their quality of cam. Therefore,we beiieve,at leastin the interisrq the Department
should presume that nursinghome residentsin a non-ht A eowred SNF stay are residhg in
their “home” and permit l’art B DM payme.n~ on Wf of suoh residents in need of these
supplies. We rccomrncnd the O]Ci study this issue and ticotnmend a eao+piation of
equipment routinely covered in lwrsi~ home ~ay~t ratesd Ill@ not routinely inchxkd in
such rates A review of State Me&d nursing fhcilitypayment methods may provide so~
insight into this issue.

 Finaliy, we recommend that fie wnc]~ion of this nwrt cl~y indicatethat Part B DME
payments made wittin a week of di~~ge for ~ n~~ home ~id~~ (regtiless of payer)
who is c]igible for Pm B ~ qprop~iate b f~i[i~ &charge planning.
                                                   I              I

Part B Services in Nursimg Homes
                                                   I




We understand that the (XG intends tour&take ~ study of State Medicaid nursing fdty
pwuent rates and methods, We agxeethat such a study is needed in O* to undcmtastd ~m
duplicate payments have been made (i.c, Me&are and Me&aid both have paid) d             When
Medieaid cost sharing is inappropriate.




                                                B-2

                               HEALTH CARE FINANCING ADMINISTRATION
                                             COMMENTS


 *.+,’’” “s%,


‘$
.“
:
s
 3
  %+
    .*.,m	
     >
                   DEPARTMENT OF HEALTH&        HUMAN SERVICES                      Health Care Fmancmg Administration



                                                                                    The Administrator
                                                                                    Washington, D.C.    20201




                DATE          OEC 151995

                TO           June Gibbs Brown
                             Inspector General

                FROM         Bruce C. Vladeck’
                                            %          W
                             Administrator     v

                SUBJECT	     OffIce of Inspector General Drafl Report “Enteral Payments in Nursing
                              Homesv (OEI-06-92-O0861)             -

                We reviewed the subject dr+l report which discusses whether Medicare Part B is paying
                too much for enteral nutrition therapy for nursing home residents.

                Our detailed comments are attached for your consideration.

                Thank you for the opporhmity to review and comment on this report. Please contact us if
                you would like to discuss our comments finther.

                Attachment




                                                            B-3

                Health Care Financing Administration (HCFA) Comments
                   on Of&e of Insoector General (OIG) Drafl ReDofl.
                    “Enteral Nutrient Payments in Nursing Homes.”
                                   OEI-06-92-00861

OIG Recommendation

HCFA should consider ways to address excessivepaymentsfor enteral nulrients. TWO
options are offered.

                                   OPTION 1

       The HCFA should exclude enteral nutrients from Part B reimbursementwhen the
       patient resides in a nursing home.

                                  OPTION 2

      The HCFA should continue Part B reirnbursemen~ but lower enteral nutrient
      reimbursement levels when provided to residents of nursing homes.

HCFA Resmmse

We concur with Option 1. We believe this option is consistent with HCFA’S efforts to
control overdhation by encouraging nursing homes to exert buying power to get
prefmed pricing on nutrientsand by removing the incentive to overdize enteral
f-.       Aa defined by the Food and Drug Administration mosg if not ~ enteral
nutrientproducts are considered food. Thus, with changes in the statutethat currently
defines enteral nutrients as a prosthetic device, these products could be included in
Medicare PartA payments. This option is also consistent with HCFA’Scurrentattempt
to consolidate billing for semices provided in skilled nursing fmilities.

Technical/ General Commentq

1.	   Include in the Executive Summarya condensed version of the methodolq          found
      inthebody of therepwt

2.	   State more clearly that all figures are estimates or projections. (The report was
      based on 5-percent sample data).

3.    Include data on tbe cost of a “meal” versus the cost of %nteralf-.”

4.	   State in the Executive Summary(and more forcefidly in the body of the report)
      that both optiona would requirelegislation.




                                            B4

                          OPERATION RESTORE TRUST
                             AND NURSING HOMES


On May 3, 1995, President Clinton announced a new anti-fraud initiative undertaken by the

Department of Health and Human Services. Led by the OffIce of Inspector General in

partnership with the Health Care Financing Administration and the Administration on Aging,

this project utilizes the expertise of many Federal, State, and private sector

personnel. They will direct their combined energies to crack down on Medicare and Medicaid

fraud, waste, and abuse initially associated with home health agencies, nursing homes,

hospices, and durable medical equipment sllppliers. They will work closely with the

Department of Justice and an intergovernmental team comprised of other Federal and State

personnel.


In addition to identi~ing and penalizing those who defraud the government, the project is

designed to alert the public and industry to the fraud schemes or vulnerable areas in policy.

To aid in this endeavor, the OffIce of Evaluation and Inspections will work within the Office

of the Inspector General to perform its primary mission of conducting evaluations that provide

timely, usefid, and reliable information and advice to the pertinent decision makers involved

in the demonstration. To this end, the following reports on nursing homes have been

completed:


   Medicare Services Provided to Residents of Skilled Nursing Facilities (OEI-06-02-00863)

   Medicare Payments for Nonprofessional    Services in Skilled Nursing Facilities (OEI-06-92-00864)

   Payment for Durable Medical Equipment Billed During Skilled Nursing Facili~ Stays (OEI-06-92-
   00860)
   Part B Services in Nursing Homes -An Overview (OEI-06-92-00865)

   Enteral Nutrient Payments in Nursing Homes (OEI-06-92-00861)

   Durable Medical Equipment P~ments       in Nursing Homes (OEI-06-92-00862)


Ongoing evaluations are being conducted related to Medicare payments for residents of
nursing homes for such services as mental health therapy, wound care, imaging, hospice,
ambulance transportation, and nail debridement. Also under review are duplicate payments
between Medicare and Medicaid for nursing home services.
